2311 Douglas Street
Omaha, Nebraska68102-1214
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-1029
BETHANY AUSTIN,
Petitioner,
v.
STATE OF ILLINOIS,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE INSTITUTE FOR JUSTICE AS AMICUS
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
PAUL M. SHERMAN
SAMUEL B. GEDGE
Counsel of Record
WILLIAM R. ARONIN
INSTITUTE FOR JUSTICE
901 North Glebe Road
Suite 900
Arlington, VA 22203
(703) 682-9320
sgedge@ij.org

Subscribed and sworn to before me this 20th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant

39560

SERVICE LIST

Counsel for Petitioner:

Counsel for Respondent:

Robert Lawrence Corn-Revere*
DAVIS WRIGHT TREMAINE, LLP
1919 Pennsylvania Ave., NW
Suite 800
Washington, D.C. 20006
Phone: (202) 973-4225
Email: bobcornrevere@dwt.com

Michael M. Glick*
Criminal Appeals Division Chief
Kwame Raoul
Attorney General of Illinois
Jane Nortz
Solicitor General
Garson S. Fischer
Assistant Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601-3218
Phone: (312) 814-2566
Email: mglick@atg.state.il.us

*Counsel of Record
Counsel for Petitioner, Bethany Austin

*Counsel of Record
Counsel for Respondent, State of Illinois

